OFFICE OF INSPECTOR GENERAL



AUDIT OF
USAID/NICARAGUA’S
ECONOMIC GROWTH
PROGRAM

AUDIT REPORT NO.1-524-08-001-P
OCTOBER 3, 2007




SAN SALVADOR, EL SALVADOR

                       Office of Inspector General




     October 3, 2007


     MEMORANDUM

     TO: 	                USAID/Nicaragua Mission Director, Alexander Dickie IV

     FROM: 	              Regional Inspector General/San Salvador, Timothy E. Cox /s/

     SUBJECT:	            Audit of USAID/Nicaragua’s Economic Growth Program (Report No.
                          1-524-08-001-P)


     This memorandum is our report on the subject audit. In finalizing the report, we carefully
     considered your comments on the draft report and we have included the Mission’s
     comments in their entirety in Appendix II.

     The report includes five recommendations for your action. The information provided in
     the Mission’s response to the draft report indicates that management decisions have
     been made for all five recommendations. Determination of final action for
     Recommendations Nos. 1 through 5 will be made by the Audit Performance and
     Compliance Division (M/CFO/APC) upon completion of the actions planned by the
     Mission.

     I appreciate the cooperation and courtesy extended to my staff throughout the audit.




U.S. Agency for International Development
Regional Inspector General/San Salvador
Unit, 3110; APO, AA 34023
Tel: (503) 2501-2999 Fax (503) 2228-5459
CONTENTS 

Summary of Results ....................................................................................................... 1


Background ..................................................................................................................... 3


Audit Objective .................................................................................................................. 4 


Audit Findings ................................................................................................................. 5 


     Did USAID/Nicaragua’s reporting on its economic growth activities 

     provide stakeholders with complete and accurate information on the 

     progress of the activities and the results achieved? ................................................... 5 


           Performance Monitoring Should Be Strengthened ............................................... 5 


           Few Site Visits Were Performed for Michigan State University Activity ............... 7 


     Other Matters .............................................................................................................. 8 


           Funds Are Available for Reprogramming ............................................................. 8 


           Environmental Requirements Were Not Fully Met ............................................... 9 


Appendix I – Scope and Methodology ........................................................................ 12 


Appendix II – Management Comments ....................................................................... 14

SUMMARY OF RESULTS 

The United States has an interest in Nicaragua’s economic growth, since poverty and
high unemployment can threaten democracy and the rule of law. In addition, U.S.
national security can be threatened by poor border security or weak governmental
institutions that cannot adequately defend against international terrorism and transit of
illegal aliens, drugs, and arms. Nicaragua, the second poorest country in the Western
Hemisphere according to U.S. government documents, has made some recent progress,
with real economic growth rebounding from 0.8 percent in 2002 to 3.1 percent in 2005
and an estimated 3.7 percent in 2006. Since the Nicaraguan National Assembly
approved the Dominican Republic-Central American Free Trade Agreement (DR
CAFTA) on October 11, 2005, a key challenge will be to execute strategies and
undertake investments that will help Nicaragua capture the potential benefits of the
treaty (see page 2).

As part of its fiscal year 2007 audit plan, the Regional Inspector General/San Salvador
performed this audit to answer the following question (see page 3):

•	 Did USAID/Nicaragua’s reporting on its economic growth activities provide
   stakeholders with complete and accurate information on the progress of the activities
   and the results achieved?

USAID/Nicaragua’s reporting on its economic growth activities did not provide
stakeholders with complete and accurate information on the progress of its activities and
the results achieved. USAID/Nicaragua’s reporting was accurate for two of the five
cases tested. In two cases, however, results reported in the Mission’s 2006 Annual
Report were unsupported, and in one case the reported result was inaccurate. In
addition, the 2005 Annual Report did not report any actual results for the economic
growth program (see page 4). The audit identified opportunities to strengthen
performance monitoring (see page 4) and also identified the need to perform and
document additional site visits (see page 6).

The audit also identified two other matters that require corrective action by
USAID/Nicaragua. First, approximately $1.75 million remains unspent under an award
that USAID/Nicaragua decided to terminate during our audit fieldwork because of a lack
of progress; this amount should be reprogrammed for other uses (see page 7). Second,
an environmental study needs to be completed to verify that appropriate safeguards
were put in place during an activity that may have involved advice on the use of
pesticides. This study, which is anticipated to cost between $17,500 and $35,000, would
have been unnecessary had USAID completed a revised initial environmental
examination (see page 8).

This report recommends that USAID/Nicaragua take steps to strengthen performance
monitoring, develop a site visit reporting form that includes a section for verifying
information reported by partners, take steps to better ensure that sufficient numbers of
site visits are performed and documented, reprogram the estimated $1.75 million
remaining under one of its cooperative agreements, and complete an environmental
study of its assistance related to use of pesticides (see pages 5, 6, 8, and 9).



                                                                                       1
USAID/Nicaragua agreed with the recommendations in our draft report and has
developed action plans and target completion dates for each of the recommendations.
(See Appendix II for the Mission’s comments in their entirety.)




                                                                                 2
BACKGROUND 

A key U.S. national interest in Nicaragua is to promote economic growth through
integration in regional and global markets, since poverty and high unemployment can
threaten the long-term sustainability of democracy and rule of law. Increased stability in
Nicaragua's democratic institutions and growth in its economy contribute to a more
secure, democratic and prosperous region. In addition, U.S. national security can be
affected by poor border security and weak governmental institutions that cannot
adequately defend against international terrorism and transit of illegal aliens, drugs, and
arms.

Despite its rich natural resources and substantial donor support, Nicaragua remains the
second poorest country in Latin America. Real per capita gross domestic product is
lower than it was in the 1960s. Around 75 percent of the population lives on less than $2
a day, unemployment and underemployment are close to 50 percent, and income
inequality is pronounced. However, there have been some recent improvements. Real
economic growth has rebounded from 0.8 percent in 2002 to 3.1 percent in 2005 and an
estimated 3.7 percent in 2006, according to the Economist Intelligence Unit. Foreign
investment has increased from an annual average of $115 million during the 1990 to
2000 period to $250 million in 2004 and $241 million in 2005.

On October 11, 2005, the Nicaraguan National Assembly approved the Dominican
Republic-Central American Free Trade Agreement (DR-CAFTA), an agreement that has
the potential to provide the framework Nicaragua needs to attract investment, create
employment, and increase economic integration with its Central American neighbors.
The challenge will be to execute strategies that will capture the full benefits of the treaty.

The activities funded by USAID/Nicaragua to promote economic growth in Nicaragua are
outlined in Table 1 below.

Table 1: Intermediate Results and Contractors and Grantees
(Financial Information as of September 30, 2006 – Unaudited)

                     Description                              Total           Cumulative
                                                            Estimated        Expenditures
                                                               Cost             (US$)
                                                              (US$)
 Intermediate Result No. 1: Laws, Policies, and
 Regulations that Promote Trade and Investment
   Caribbean Central American Action – Help business
   leaders articulate a common vision regarding DR
   CAFTA implementation.                                          500,000             371,380
   Financial Markets International – Help Nicaragua
   meet its obligations and take advantage of
   opportunities under DR-CAFTA.                                3,464,092             693,936
   U.S. Department of Agriculture – Provide technical
   sanitary and phytosanitary assistance to Nicaragua
   to enable compliance with international standards,
   strengthening competitiveness in export markets
   under DR-CAFTA.                                              1,100,000             273,253



                                                                                            3
                     Description                                Total              Cumulative
                                                              Estimated           Expenditures
                                                                 Cost                (US$)
                                                                (US$)
   Caribbean Central American Action – Help the
   Nicaraguan Foundation for Economic and Social
   Development (FUNIDES) conduct public policy
   research and advocate market-based solutions.                   5,000,000                      0
 Intermediate Result No. 2: More Competitive Market-
 Oriented Private Enterprises
   Michigan State University – Support the
   improvement of agricultural products, expand
   agribusinesses and farms, and improve links
   between farmers and markets.                                   14,137,751            12,267,799
 Intermediate Result No. 3: Broader Access to Financial    USAID/Nicaragua       USAID/Nicaragua
 Markets and Services                                        does not fund         does not fund
                                                            activities in this    activities in this
                                                                  area.                 area.
 Intermediate Result No. 4: Improved Management and
 Conservation of Critical Watersheds
   The Nature Conservancy – Help Nicaragua better
   conserve its natural resources and help ensure long-
   term economic competitiveness.                                  1,500,000             1,500,000
   U.S. Department of Agriculture – Provide technical
   assistance for forest management services.                        683,847               675,625
   Rainforest Alliance – Promote the sale of sustainably
   produced, certified timber, bananas, and coffee.                1,000,000               410,820
   Rainforest Alliance – Strengthen the
   competitiveness of small and medium enterprises
   and community-based operations in agriculture,
   tourism, and forestry, and improve their access to
   international markets and business partners.                    3,640,000                     0
 Program Management                                                3,143,882             1,283,275
                           Total Strategic Objective             34,169,572            17,476,088

Under its economic growth program, USAID/Nicaragua obligated $12.6 million during FY
2005 and $15.6 million during FY 2006. Disbursements totaled $2.6 million during FY
2005 and $11.0 million during FY 2006.

AUDIT OBJECTIVE
As part of its FY 2007 audit plan, the Regional Inspector General/San Salvador
performed this audit to answer the following question:

•	 Did USAID/Nicaragua’s reporting on its economic growth activities provide
   stakeholders with complete and accurate information on the progress of the activities
   and the results achieved?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                                  4
AUDIT FINDINGS

Did USAID/Nicaragua’s reporting on its economic growth
activities provide stakeholders with complete and accurate
information on the progress of the activities and the results
achieved?
USAID/Nicaragua’s reporting on its economic growth activities did not provide
stakeholders with complete and accurate information on the progress of its activities and
the results achieved. USAID/Nicaragua’s reporting in FY 2005 and FY 2006 on foreign
direct investment was accurate (representing two of five cases tested). However, results
reported in the Mission’s 2006 Annual Report for increased sales and jobs created were
unsupported (two of five cases tested), and the reported number of laws and regulations
adopted to increase trade and investment was inaccurate (one of five cases tested).
These and related issues are discussed in the following report section; the need to
perform and document additional site visits is discussed in the report section beginning
on page 7.

Performance Monitoring
Should Be Strengthened
Summary: USAID guidance requires that realistic performance targets be set and that
reported information on actual results be accurate. However, in several instances,
performance targets were set too low to be useful in managing the economic growth
program or where the targets were stated inconsistently; in two instances, reported
information on actual results was unsupported; and in one instance, reported information
was inaccurate. These issues occurred primarily because Mission staff relied entirely on
partners to report accurate data. Consequently, the Mission lacked adequate assurance
that its performance targets and reported results provided a sound basis for program
management decisions.

Automated Directives System (ADS) 203.3.4.5 states that performance targets should
be set at a level that can be optimistically but realistically achieved with available
resources within the stated timeframe. Targets that are set too low become irrelevant.
Finally, ADS 203.3.5.2 and TIPS 12 (supplemental guidance referenced by the ADS)
require USAID mission staff to ensure that data reported by implementing partners and
the mission itself are accurate.

In several instances, however, performance targets were set too low to be useful in
managing the economic growth program or the targets were stated inconsistently, and in
three instances reported information on actual results was unsupported or inaccurate:

•	 USAID/Nicaragua had not updated its performance management plan (PMP) since
   January 2005. The need for a review and realignment of targets within the PMP
   should have been evident when the Mission reported that it had exceeded its 2005
   target for “Increased Sales for Firms Receiving USAID Assistance” by 78 percent
   and its 2006 target by 168 percent.



                                                                                       5
•	 The 2005 and 2006 targets for the “Increased Sales for Firms Receiving USAID
   Assistance” indicator in the PMP were not the same as those reported in the
   Mission’s 2005 and 2006 Annual Reports. The PMP listed the targets as $12 million
   for both 2005 and 2006, while the Annual Reports listed the 2005 target as $9 million
   and the 2006 target as $10 million.

•	 The 2006 reported results for the “Increased Sales for Firms Receiving USAID
   Assistance” indicator could not be verified. Based on interviews with Mission staff,
   we concluded that the Mission relied on reporting by its partners without verifying the
   data and that the Mission had no supporting documentation for these reported
   results. Examination of source documentation available from USAID’s partner
   showed insufficient support for the results provided to USAID.

•	 The target for the “Foreign Direct Investment (FDI)” indicator was shown in the 2005
   Annual Report as a percentage increase, but the 2006 Annual Report showed the
   target as a dollar amount.

•	 The Mission’s PMP showed the 2005 target for FDI as $255 million, but the 2006
   Annual Report showed the target for 2005 as $248 million.

•	 For the indicator entitled “Number of Laws, Policies, and Regulations Adopted to
   Increase Trade and Investment” the PMP showed a 2005 target of two, while the
   2006 Annual Report stated that the 2005 target was three.

•	 The Mission defines the indicator “Number of Laws, Policies, and Regulations
   Adopted to Increase Trade and Investment” as the number of new laws, policies, and
   regulations adopted as a result of USAID assistance. However, according to a
   Mission official, the Mission’s results included not only those laws and policies that
   were adopted but also laws that had only been developed in draft form by the
   implementing partner.

•	 The Mission’s 2006 Annual Report narrative section stated that USAID-assisted
   enterprises created 24,082 full-time equivalent jobs in the agriculture sector, but
   Mission staff could not demonstrate how they arrived at this figure.

Some of these problems occurred because Mission staff relied on their implementing
partners to report results data and did not recognize the importance of independently
verifying data quality.      Mission staff should have noticed and resolved the
inconsistencies among the various program management documents during the portfolio
review process. Periodic data verification testing could have been done during regular
site visits to partners. A useful tool for Mission staff would be a standard site visit form
with a data verification section to remind cognizant technical officers (CTOs) to check
reported results and data collection methodologies on a sample basis. Mission
documents indicate that staff members were aware that some targets needed to be
adjusted in light of actual performance, but the PMP was never adjusted as the staff
became involved in the new operational plan process. We also noted that the Mission
did not have a Mission evaluation officer, who potentially could have reinforced the rigor
of the Mission’s performance monitoring systems.              In response to our audit,
USAID/Nicaragua plans to designate a Mission evaluation officer.



                                                                                          6
For these reasons, program targets were not as useful for program management
purposes as they could have been, and the Mission lacked sufficient assurance that
reported information on actual results was accurate.

   Recommendation No. 1: We recommend that USAID/Nicaragua put
   management and supervisory controls in place to reasonably ensure that
   performance targets are consistently stated and up to date and that cognizant
   technical officers periodically review data reported by partners for completeness,
   accuracy, and consistency.

   Recommendation No. 2: We recommend that USAID/Nicaragua develop a site
   visit reporting form that includes a section detailing the cognizant technical
   officers’ examination and testing of information reported by partners.

Few Site Visits Were Performed for
Michigan State University Activity
 Summary: Site visits are an important part of USAID’s monitoring activities, and
 USAID/Nicaragua’s 2006 internal control self-assessment concluded that the Mission
 should schedule a minimum of two visits per quarter to every “major project.” However,
 for FYs 2005 and 2006, only five site visits were documented for the Michigan State
 University activity. The responsible Mission staff member acknowledged that the
 limited number of site visits was a weakness, although he stated that some additional
 site visits were performed but not documented, and he noted that the activity was
 successful. Without sufficient documented site visits, Mission monitoring will be
 dependent on secondhand accounts of progress and issues.

ADS 303.3.17 states that “site visits are an important part of effective award
management, since they usually allow a more effective review of the project … When
the Agreement Officer or CTO makes a site visit, the Agreement Officer or CTO must
write a brief report highlighting findings, and put a copy in the official award file.”
USAID’s Guidebook for Managers and Cognizant Technical Officers on Acquisition and
Assistance states that site visits are a key element in the CTO’s ability to monitor the
progress of contractors. Site visits allow the CTO to observe the contractor at work to
determine if the performance is in compliance with the contract. These visits also allow
the CTO to check actual contractor performance against scheduled performance and
verify reported performance progress. USAID/Nicaragua’s 2006 internal control self-
assessment pursuant to the Federal Managers’ Financial Integrity Act of 1982 concluded
that the Mission should “schedule at a minimum two visit [sic] per quarter to every major
project to monitor project activities and benchmarks more closely.”

The Mission documented only five site visits during FYs 2005 and 2006 for the Michigan
State University award, the largest award in the economic growth portfolio. The CTO
acknowledged that the modest number of site visits was a weakness but also maintained
that (1) some visits were performed but not documented and (2) the activity was
successful. Without sufficient documented site visits, Mission monitoring is dependent
on second-hand accounts of progress and issues.




                                                                                        7
   Recommendation No. 3: We recommend that USAID/Nicaragua put
   management and supervisory controls in place to reasonably ensure that
   sufficient numbers of site visits are performed and documented.

Other Matters
During the audit, two other matters requiring corrective action, not closely related to our
audit objective discussed above, came to our attention. These matters, which concern
the need to reprogram funds obligated under one award and complete an environmental
study, are discussed in the following section.

Funds Are Available
for Reprogramming
Summary: USAID guidance emphasizes both the importance of partner involvement in
developing plans for USAID programs and the need for prompt corrective action when
planned outputs are not achieved. One of the Mission’s activities, designed to support
an independent think tank, was cancelled during our audit because of a lack of a
common understanding on what the activity was to accomplish. The Mission became
aware that the activity was not progressing satisfactorily in late 2006, but it did not take
decisive action before the audit because of unusual events like the Nicaraguan
presidential election in November 2006 and the need to give the Mission’s partner time
to try to get the activity back on track. According to the activity manager for the award,
this resulted in relatively little being accomplished for an estimated cost of $250,000 (as
of February 2007). Consequently, approximately $1.75 million remaining under the
agreement can be reprogrammed.

ADS 201.3.4.2 and 201.3.12.7 emphasize the importance of involving partners in
developing strategic plans and clarifying the roles of partners in implementing USAID
activities. ADS 202.3.6 states that monitoring the quality and timeliness of outputs
produced by implementing partners is a major task of CTOs and strategic objective
teams. Delays in completing outputs, or problems in output quality, provide an early
warning that results may not be achieved as planned. Early action in response to
problems is essential in managing for results.

On July 27, 2006 Caribbean Central American Action (CCAA) was awarded a
cooperative agreement to support the Fundación Nicaraguense para el Desarrollo
Económico y Social (FUNIDES). The estimated amount of the award was $5 million, of
which $2 million was obligated. FUNIDES was to be a credible, apolitical, nonprofit
organization (“think tank”) that would help formulate a shared vision in Nicaragua among
the business community, civil society, and the public sector to fully take advantage of the
opportunities that DR-CAFTA would bring to people in Nicaragua.

Unfortunately, it soon became apparent that CCAA and FUNIDES had different
understandings of what CCAA’s assistance would entail, with FUNIDES welcoming
CCAA’s material support but resisting any participation by CCAA in helping set
FUNIDES’ agenda. As a result, FUNIDES declined to approve any of the work plans
developed by CCAA. According to the Mission’s activity manager for this project, by late
2006, USAID/Nicaragua was aware that CCAA’s activities were not progressing
satisfactorily, but it was persuaded by CCAA to wait until after the Nicaraguan


                                                                                          8
presidential election in November 2006 before making any decisions. Since FUNIDES
was to be tasked with conducting public policy research, it was thought that the
presidential election results would indicate which direction research should take and how
it should be presented to the new government for consideration. Additionally, in January
2007, CCAA’s chief executive officer and in-country project manager left the company,
leaving CCAA with no presence in Nicaragua. In February/March 2007, a CCAA staff
member began visiting Nicaragua on a monthly basis to “get the project back on track”
while CCAA searched for suitable staff to work in Nicaragua, but by this time FUNIDES
had openly stated that it would no longer work with CCAA. During our audit fieldwork,
USAID/Nicaragua decided to cancel the award. In retrospect, a Mission official
recognized that it would have been useful to prepare a memorandum of understanding
with FUNIDES to formalize understandings on the type of assistance to be provided to
FUNIDES by CCAA.

As a result of this situation, relatively little was accomplished for an estimated cost of
$250,000 (as of February 2007), according to the Mission’s activity manager for the
project. An estimated $1.75 million of unliquidated obligations remains under the CCAA
cooperative agreement, which can be reprogrammed for other purposes.

   Recommendation No. 4: We recommend that USAID/Nicaragua reprogram the
   estimated $1.75 million remaining under the cooperative agreement with
   Caribbean Central American Action (CCAA) to activities that are determined to
   be achievable within the Mission’s operational plan.

Environmental Requirements
Were Not Fully Met
 Summary: USAID/Nicaragua has not yet fully complied with the environmental
 regulations in Title 22, Part 216 of the Code of Federal Regulations. USAID prepared
 an Initial Environmental Examination (IEE) for the program implemented by Michigan
 State University. After the program evolved to include advice on the use of pesticides,
 USAID drafted a revised IEE. However, USAID did not finalize the revised IEE before
 the program ended. Therefore, the Bureau environmental officer determined that a
 study should be performed to see if appropriate safeguards were followed during the
 program. While the study was expected to be completed by July 2007, the contract
 for the study had not yet been awarded as of early August 2007. Because the revised
 IEE was not finalized before the end of the program, USAID will incur additional
 expenses to complete the study and USAID currently has insufficient assurance that
 appropriate safeguards related to pesticide use were in place.

Title 22, Part 216 of the Code of Federal Regulations (22 CFR 216) establishes
environmental policy and procedures for USAID programs. Unless conditions for a
categorical exclusion from the requirements are met, USAID must prepare an IEE when
designing new programs. Based on the IEE, USAID makes a threshold decision to
determine whether the proposed program will have a significant effect on the
environment. If a positive threshold decision is made, then USAID may undertake
additional analysis (either an Environmental Assessment or an Environmental Impact
Statement).




                                                                                        9
In August 2003, USAID completed and received approval of an IEE for the activities
under the economic growth strategic objective. The IEE included the originally
envisioned activities to be performed under its 2003 cooperative agreement with
Michigan State University. However, during the course of the Michigan State University
program, the scope of work to be conducted under the cooperative agreement was
expanded to include activities that made a second IEE advisable. Because the
expanded activities may have included advice on the use of pesticides, USAID decided
that a review of the activities performed under the award was important to ensure
compliance with USAID’s environmental policies.

As a result of the evolution of activities under the cooperative agreement, a revised IEE
was drafted beginning in 2005. Although it underwent numerous changes and reviews,
it was not approved before the end of the cooperative agreement with Michigan State
University in April 2007. The resignation of the Mission’s environmental officer in
October 2006, and the arrival of a new economic growth office director in late 2006,
resulted in further delays in approving the IEE. In late 2006, the Bureau Environmental
Officer noted that the revised IEE had not been finalized. He decided that an
environmental audit (study) should be performed to determine the scope of Michigan
State University’s activities related to the use of pesticides and to determine whether
appropriate safeguards were in place. If any deficiencies are found, the study will also
recommend mitigation measures. The study was originally expected to be completed by
July 31, 2007 but, as of early August 2007, USAID had not yet awarded the contract for
the study.

Because the revised IEE was not finalized in a timely manner, USAID must now incur
expenses to pay for the environmental study described above. USAID/Nicaragua and
the regional environmental advisor anticipate that the cost of the study will be from
$17,500 to $35,000, not including the cost of any mitigation measures that may be
required. In addition, USAID currently has insufficient assurance that the program
incorporated appropriate environmental safeguards related to pesticide use.

   Recommendation No. 5: We recommend that USAID/Nicaragua complete an
   environmental study of its assistance related to use of pesticides and complete
   any needed mitigation measures that may be identified by the study.




                                                                                      10
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Nicaragua agreed with the recommendations in our draft audit report and has
developed specific plans to address all five recommendations and has set target dates
for the completion of each action. Mission comments in their entirety are presented in
Appendix II.




                                                                                   11
                                                                           APPENDIX I 





SCOPE AND METHODOLOGY 

Scope
The Regional Inspector General/San Salvador conducted this audit in accordance with
generally accepted government auditing standards. The purpose of the audit was to
determine whether USAID/Nicaragua’s reporting of its economic growth activities
provided stakeholders with complete and accurate information on the progress of the
activities and the results achieved.

In planning and performing the audit, we assessed the Mission’s controls related to its
economic growth activities.       The management controls identified included the
performance management plan (PMP), the Mission’s data quality assessments, the
Mission’s annual self-assessment of management controls as required by the Federal
Managers’ Financial Integrity Act of 1982, reports on cognizant technical officer (CTO)
field visits, program progress reports, and day-to-day interaction between Mission staff
and program implementers.

The audit covered the Mission’s second strategic objective, Economic Freedom: Open,
Diversified, Expanding Economies. The audit was conducted in Nicaragua from May 21,
2007 to June 7, 2007. The audit focused on the period from October 1, 2004 through
September 30, 2006.

The scope of the audit included the Mission’s bilateral economic growth activities and
excluded regional activities that were implemented in Nicaragua.

Methodology
To answer the audit objective, we met with CTOs and implementing partners. We
reviewed relevant documentation produced by USAID/Nicaragua such as award
documents, Mission correspondence, worksheets for measuring results, the Mission
performance management plan, annual reports, and field visit reports. We also
reviewed documentation prepared by implementing partners such as annual work plans
and quarterly progress reports.

We sampled three key implementing partners with current awards. We also included the
largest program partner, even though its award had just ended, because it still had some
operations within the country and was willing to support our audit requests as much as
possible. The sample was judgmentally selected to represent the largest awards within
each intermediate result to provide sufficient coverage of the program. The sample
excluded regional programs, as well as the award to Rainforest Alliance, because the
Rainforest Alliance award was new and activities were in the start up stage during the
period covered by the audit.

To determine whether accurate information was reported, we compared results obtained
from tests and interviews with the results presented in the Mission’s performance




                                                                                     12
                                                                             APPENDIX I 



management plan and the annual report.            We specifically verified reported
accomplishments through the following procedures:

•	 We reviewed Mission performance monitoring documentation to compare reported
   results with supporting figures in the Mission’s files.

•	 For context indicators and national-level indicators, we verified the Mission’s reported
   results against source organizations’ reported results and data to ensure accuracy of
   reporting by the Mission.

•	 For the performance indicators that the Mission formally reported on in its FY 2006
   Annual Report, plus one performance indicator that was covered in the Annual
   Report narrative, we interviewed Mission and/or implementing partner personnel and
   reviewed documentation to determine how results are collected for these indicators.
   The following tests were performed to determine the accuracy of reported results:

   o	 For agricultural activities, we reviewed the lead implementing partners’
      supporting records and attempted to verify the reported performance figures for
      increased sales against the correct reporting period and against the records kept
      by the subgrantees, if available.

   o	 For the performance indicator “number of laws, policies, and regulations adopted
      to increase trade and investment,” we compared information in
      USAID/Nicaragua’s Annual Report with the partner’s quarterly performance
      reports to ensure that only results that fell within the indicator definition were
      reported.

   o	 For the foreign direct investment indicator, we verified the reported amounts
      against those publicly published by the organization defined in the indicator
      definition.

The audited sample represented $10.0 million of the $12.6 million total obligations (79
percent) and $2.2 million of the $2.6 million total disbursements (84 percent) for FY
2005. In addition, the audit covered $9.6 million of the $15.6 million in FY 2006
obligations (62 percent) and $10.3 million of the total $11.1 million in disbursements for
FY 2006 (93 percent).




                                                                                        13
                                                                             APPENDIX II 




MANAGEMENT COMMENTS 

To: 	       Timothy E. Cox, Regional Inspector General/San Salvador

From:	      Alexander Dickie IV, USAID/Nicaragua Mission Director /s/

Subject:	   Audit of USAID/Nicaragua’s Economic Growth Program (Report No. 1-524
            07-xxx-P)

Date: 	     September 12, 2007


This memorandum responds to your draft report on the referenced subject and provides
Mission comments on the five recommendations contained therein. As requested, we
have specified our agreement or disagreement with each recommendation. In cases of
agreement, we have specified a target date for the identified actions. I appreciate the
opportunity to comment on the recommendations.

Recommendation No. 1: We recommend that USAID/Nicaragua put management and
supervisory controls in place to reasonably ensure that performance targets are
consistently stated and up to date and that Cognizant Technical Officers periodically
review data reported by partners for completeness, accuracy, and consistency.

We concur with the recommendation. All performance targets for the Trade and
Agribusiness SO will be adjusted, if needed, to ensure that they are consistently stated
and up to date as required by ADS203.3.4.5. We will amend the current mission order
on site visits to include a requirement that Cognizant Technical Officers periodically
select and review of sub-set of data reported by partners for completeness, accuracy
and consistency. Target date: December 31, 2007.

Recommendation No. 2: We recommend that USAID/Nicaragua develop a site visit
reporting form that includes a section detailing the CTOs’ examination and testing of
information reported by partners.

We concur with the recommendation. We will amend the current mission order on site
visits to include a standard site visit worksheet developed for CTOs’ to record their
results of information reported by partners. Target date: December 31, 2007.

Recommendation No. 3: We recommend that USAID/Nicaragua put management and
supervisory controls in place to reasonably ensure that sufficient numbers of site visits
are performed and documented.

We concur with the recommendation. USAID/Nicaragua will designate a Mission
Evaluation Officer. One of the responsibilities of this position will be to monitor Mission
site visit scheduling to ensure that a sufficient number of site visits are performed and
documented for each activity. Target date: December 31, 2007.




                                                                                        14
                                                                            APPENDIX II 



Recommendation No. 4: We recommend that USAID/Nicaragua reprogram the
estimated $1.75 million remaining under the cooperative agreement with Caribbean
Central American Action (CCAA) to activities that are determined to be achievable within
the Mission’s operational plan.

We concur with the recommendation. The Trade and Agribusiness SO is currently
reviewing a concept paper for direct small grant to FUNIDES – the original beneficiary of
the CCAA agreement. Target date: December 31, 2007. The SO is in early stages of a
scoping exercise to determine priorities for a new activity under the Program Area of
Private Sector Competitiveness. Target date: December 31, 2007.

Recommendation No. 5: We recommend that USAID/Nicaragua complete an
environmental study of its assistance related to use of pesticides and complete any
needed mitigation measures that may be identified by the study.

We concur with the recommendation. An audit of the environment impact of the use of
pesticides started on August 27, 2007. LAC Regional and Bureau Environmental
Officers came to USAID/Nicaragua on TDY to participate in the first week of the audit. A
final report is expected by September 28, 2007. If this audit identifies any mitigation
measures, we will take appropriate measures. Target date: December 31, 2007.




                                                                                       15
U.S. Agency for International Development 

       Office of Inspector General 

       1300 Pennsylvania Ave, NW 

         Washington, DC 20523 

            Tel: (202) 712-1150 

           Fax: (202) 216-3047 

            www.usaid.gov/oig

